Report No. D-2008-007          October 25, 2007




  Task Orders on the Air Force Network-Centric
               Solutions Contract
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                               ODIG-AUD (ATTN: Audit Suggestions)
                               Department of Defense Inspector General
                               400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704




Acronyms
COR                   Contracting Officer Representative
EDA                   Electronic Document Access
ELSG                  Electronic Systems Group
FAR                   Federal Acquisition Regulation
FPDS-NG               Federal-Procurement Data System-Next Generation
GSA                   General Services Administration
IA                    Information Assurance
IT                    Information Technology
NETCENTS              Network-Centric Solutions
NSTISSP               National Security Telecommunications and Information Systems
                         Security Policy
PMO                   Program Management Office
QASP                  Quality Assurance Surveillance Plan
-                                 INSPECTOR GENERAL


~I
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON . VIRGINIA 22202-4704




                                                                            October 25,2007

    MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                     TECHNOLOGY, AND LOGISTICS
                   AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                   NAVAL INSPECTOR GENERAL
                   ASSISTANT SECRETARY OF THE AIR FORCE
                     (FINANCIAL MANAGEMENT AND COMPTROLLER)

    SUBJECT: Report on Task Orders on the Air Force Network-Centric Solutions Contract
             (Report No. D-2008-007)


          We are providing this report for information and use. We considered
    management comments on a draft of this report in preparing the final report.

            Comments on the draft of this report conformed to the requirements of DoD
    Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
    required.

            We appreciate the courtesies extended to the staff. Questions should be directed
    to Ms. Jacqueline L. Wicecarver at (703) 604-9201 (DSN 664-9201) or Mr. Daniel S.
    Battitori at (703) 604-9012 (DSN 664-9012). The team members are listed inside the
    back cover. See Appendix E for the report distribution.

                                   By direction of the Deputy Inspector General for Auditing:



                                       ~41~   Richard B. Jolliffe
                                         Assistant Inspector General
                                      Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2008-007 	                                                 October 25, 2007
   (Project No. D2007-D000AS-0074.000)

                Task Orders on the Air Force Network-Centric 

                             Solutions Contract 


                                 Executive Summary 


Who Should Read This Report and Why? People responsible for or involved in the
implementation and execution of multiple-award, indefinite-delivery, indefinite-quantity
contracts should read this report. The report addresses contracting, information
assurance, small business, and oversight issues that require management attention to
ensure Government contracts are sufficiently planned and implemented. Specifically, we
reviewed the task orders that have been issued from this contract.

Background. This report is the second report concerning the Air Force Network-Centric
Solutions (NETCENTS) contract. The Air Force NETCENTS contract is a
multiple-award, indefinite-delivery, indefinite-quantity contract for products, services,
and total solutions. It has a $9 billion order ceiling and a base contract term of 3 years
with two 1-year options. The contract provides the Air Force, DoD, and other Federal
agencies a primary source of networking equipment and system engineering, installation,
integration, operations, and maintenance. The Air Force Chief Information Office issued
an action memorandum stating the Air Force is required to use the NETCENTS contract
for all networking and information technology products and service requirements.

We initiated the audit based on a request from the Assistant Secretary of Defense for
Networks and Information Integration/DoD Chief Information Officer to determine
whether the NETCENTS contract contained contracting and information assurance
requirements.

Results. During the audit of the Air Force NETCENTS contract, we identified the
following:

       •	 The NETCENTS Program Management Office (PMO) did not have adequate
          controls over the decentralized ordering process. As a result, we projected the
          following systemic issues in our universe of 1,312 decentralized task orders
          valued at approximately $634 million:

               −	 34 percent did not meet fair opportunity requirements;

               −	 57 percent were not properly competed;

               −	 14 percent did not adhere to information assurance requirements; and

               −	 25 percent did not define how information assurance product
                  capabilities would be used.
           Of 303 decentralized service task orders, we projected that 84 percent were
           not adequately monitored. In addition, we identified modifications valued at
           $139.4 million on four decentralized orders that improperly increased the
           scope or did not contain definitive order requirements. The Director, 754th
           Electronic Systems Group should develop an oversight program for the
           decentralized task orders. At a minimum, the oversight program should focus
           on best value, use of brand names, performance-based acquisition methods,
           monitoring, information assurance, and task order modifications; or centralize
           the task order process. In addition, the Director, 754th Electronic Systems
           Group should ensure task orders are competed among all NETCENTS
           contractors. See Finding A for the detailed recommendations.

       •	 The NETCENTS PMO did not have adequate internal controls to track
          decentralized orders awarded from the NETCENTS contract or to ensure that
          all fees were being collected. As a result, the NETCENTS PMO
          decentralized tracking process did not account for 117 task orders or task
          order modifications awarded under the NETCENTS contract with an
          estimated value of $27.4 million, recorded 800 incomplete orders, mislabeled
          at least 15 task orders as products or services, and misreported the value of at
          least 10 task orders by $1.3 million. Therefore, the total value of NETCENTS
          task orders was unknown, and the NETCENTS PMO could not ensure that the
          contract ceiling was not exceeded. In addition, as of April 2007, the
          NETCENTS PMO had collected $8.2 million in fees while its current
          decentralized tracking process indicated that $16.3 million in fees should have
          been collected. The Director, 754th Electronic Systems Group should
          centrally record all NETCENTS orders and develop processes to track orders
          and fees owed. See Finding B for the detailed recommendations.

       •	 DoD customers were paying the General Services Administration to place
          NETCENTS task orders instead of using DoD contracting offices. As a
          result, DoD wasted approximately $607,000 in General Services
          Administration fees on 91 task orders and approximately 70 percent of these
          orders were awarded to one of the eight NETCENTS contractors. The
          Acquisition Executives of the Army, Navy, and Air Force should take
          administrative action against the DoD customers that did not go through DoD
          procurement channels and wasted money and the Director, Defense
          Procurement and Acquisition Policy should issue policy governing the use of
          assisted acquisitions when a non-DoD agency places an order for a DoD
          customer using a DoD contract. This policy should require justifications that
          identify these assisted acquisitions are in the best interest of the Government
          and that the costs for assisted acquisition services are reasonable given the
          benefits associated with using a non-DoD agency to perform contracting
          services. See Finding C for the detailed recommendations.

Management Comments. Management concurred with our findings and
recommendations and were responsive to the issues we identified in our report. The Air
Force intends to enhance the current oversight program for decentralized task orders to
focus on best value, appropriate use of brand names, performance-based acquisition
methods, monitoring, and information assurance. The Air Force agreed to modify the
NETCENTS contract to address brand name concerns and remove the small business
set-aside language to ensure that fair opportunity is given for all orders exceeding $3,000.
The Air Force also agreed to review and improve the oversight responsibilities to ensure
that more accurate and complete accountability for usage fees is accomplished. The
Army, Navy, and Air Force agreed to investigate the NETCENTS task orders placed by

                                             ii
the General Services Administration for organizations within their Services and take
administrative action if necessary. The Under Secretary of Defense for Acquisition,
Technology, and Logistics agreed to issue a policy memorandum on the use of assisted
acquisitions when a non-DoD agency places an order for a DoD customer using a DoD
contract. See the Finding sections of the report for a discussion of management
comments and the Management Comments section of the report for complete text of the
comments.




                                         iii
Table of Contents 


Executive Summary 	                                                            i


Background 	                                                                   1


Objective 	                                                                    1


Review of Internal Controls 	                                                  2


Findings
      A. Decentralized Task Order Oversight 	                                  3

      B. Program Management Office Order Tracking and Fee Collection          12 

      C. DoD Use of the General Services Administration to Place NETCENTS 

           Task Orders                                                        17 



Appendixes
      A. Scope and Methodology 	                                              20 

           Prior Coverage                                                     22 

      B. Audit Checklist Questions 	                                          23 

      C. Projection Results From the Statistical Sample 	                     24 

      D. Audit Results of the Statistical Sample 	                            26 

      E. Report Distribution 	                                                27 



Management Comments
      Under Secretary of Defense for Acquisition, Technology, and Logistics   29 

      Department of the Army                                                  30 

      Department of the Navy                                                  31 

      Department of the Air Force                                             32 

Background 

           This report is the second report concerning the Air Force Network-Centric
           Solutions (NETCENTS) contract and was initiated because of a management
           request. The Air Force NETCENTS contract is a multiple-award,
           indefinite-delivery, indefinite-quantity contract with a $9 billion ordering ceiling.
           Four small businesses (Multimax, Telos, Centech, and NCI) and four large
           businesses (Northrop Grumman, General Dynamics, Lockheed Martin, and Booz
           Allen Hamilton) were awarded NETCENTS contracts in September 2004. The
           NETCENTS contract comprises eight contracts1—one for each prime contractor.
           The NETCENTS contract has a contract base of 3 years with two 1-year options.
           The purpose of the contract is to provide the Air Force, DoD Components, and
           other Federal agencies a primary source of networking equipment and system
           engineering, installation, integration, operations, and maintenance. As of May
           2007, approximately 84 percent of the total task orders were for products, 10
           percent for product and service solutions, and 6 percent for services. From
           September 2004 through May 25, 2007, approximately $2.53 billion, or 28
           percent of the $9 billion ceiling, was awarded on NETCENTS orders.

           The NETCENTS contract is centrally managed by the 754th Electronic Systems
           Group (ELSG) at the Maxwell Air Force Base-Gunter Annex in Montgomery,
           Alabama. However, the Air Force, other DoD Components, and other Federal
           agencies are authorized to place decentralized ordering. According to the
           NETCENTS Ordering Guide, the contract states that “decentralized ordering is
           permitted per the Air Force Federal Acquisition Regulation Supplement section
           5316.505-90, ‘Decentralized Ordering,’ revised June 15, 2006.” As of FY 2006,
           approximately 94 percent of all task orders issued since the NETCENTS contract
           award were decentralized.

           The Air Force Chief Information Officer issued an Action Memorandum,
           “Information Technology Purchasing - Network Centric Solutions,” on
           January 27, 2005. The memorandum states that the NETCENTS contract is the
           mandatory source for communications capabilities procured to satisfy Air Force
           appropriated fund requirements for information technology (IT) products and
           services associated with the design, engineering, integration, installation, and
           configuration of Air Force networks and networked infrastructure. The
           memorandum states that users may obtain a waiver by going through the Air
           Force major commands.


Objective
           Our overall audit objective was to determine whether task orders are consistent
           with the Network-Centric Solutions contract and Federal and DoD acquisition
           contracting policy, to include information assurance (IA) requirements. See
           Appendix A for a discussion of the scope and methodology related to the
           objective.


1
    The eight NETCENTS contracts vary only by a few clauses. Therefore, we will refer to the eight
    contracts as the “NETCENTS contract.”



                                                     1

Review of Internal Controls
     We identified material internal control weaknesses for the NETCENTS contract
     and the 754th ELSG as defined by DoD Instruction 5010.40, “Managers’ Internal
     Control (MIC) Procedures,” January 4, 2006. DoD Instruction 5010.40 states that
     internal controls are the organization, policies, and procedures that help program
     and financial managers achieve results and safeguard the integrity of their
     programs. NETCENTS program officials did not have the following internal
     controls for contract administration and management procedures to ensure:
     decentralized orders were in accordance with Federal and DoD policy, that fees
     were properly collected, and that the contract value did not exceed the ceiling
     limit. Implementing Recommendations A.1. and B. will improve the current
     NETCENTS contract internal control procedures. In addition, the 754th ELSG
     does not have adequate procedures and controls in place to reasonably ensure that
     contracts comply with Federal small business policies. Implementing
     Recommendation A.2. will improve the 754th ELSG compliance with small
     business requirements. A copy of the final report will be provided to the Air
     Force senior officials responsible for internal controls for the NETCENTS
     contract and 754th ELSG small business procedures.




                                         2

                     A. Decentralized Task Order Oversight
                     The NETCENTS Program Management Office (PMO) did not have
                     adequate controls over the decentralized ordering process. This occurred
                     because the NETCENTS PMO did not provide centralized oversight in
                     accordance with Air Force regulations, and the NETCENTS contract
                     contained an inappropriate small business set-aside. As a result, out of a
                     universe of:

                              •	 1,312 decentralized task orders valued at approximately
                                 $634 million, we projected2 that:

                                       −	 34 percent did not adhere to fair opportunity
                                          requirements,

                                       −	 57 percent were not properly competed,

                                       −	 14 percent did not adhere to IA requirements, and

                                       −	 25 percent did not define how IA product capabilities
                                          would be used;

                              •	 303 service and solution decentralized task orders valued at
                                 approximately $374.9 million, we projected 84 percent were
                                 not adequately monitored; and

                              •	 8 decentralized task orders3 valued at $151.1 million, 4 orders
                                 had modifications valued at $139.5 million that improperly
                                 increased the scope or did not contain definitive order
                                 requirements.


Air Force Federal Acquisition Regulation Supplement Policy
           Air Force Federal Acquisition Regulation Supplement section 5316.505-90,
           “Decentralized Ordering,” states:

                   For contracts that authorize decentralized ordering (i.e., ordering by a
                   contracting office at any other location), the contracting officer with overall
                   responsibility for the contract shall:

                   (a) Ensure that adequate control procedures are in place before any orders
                   are authorized; and

                   (b) Exercise oversight of decentralized ordering throughout the period of
                   performance under the contract to ensure that the procedures are followed.


2
    We statistically projected our audit results. See Appendix C for all the statistical sample projections.
3
    Eight decentralized task orders were judgmentally selected for review based on modifications that
    significantly increased the value above the original award amount (see Appendix A).



                                                         3

Oversight and Controls Over the Decentralized Task Orders
     This is the second report concerning the Air Force NETCENTS contract. In DoD
     Inspector General Report D-2007-106, “Air Force Network-Centric Solutions
     Contract,” June 29, 2007, we identified that the 754th ELSG had not developed an
     oversight program for $1.25 billion of decentralized task orders as required by Air
     Force Federal Acquisition Regulation Supplement section 5316.505-90. The
     report identified that the 754th ELSG controls consisted only of the decentralized
     contracting officers, the ordering guide, and the contracts. The primary control
     was the decentralized contracting officers. Since there was no central oversight
     over the decentralized task orders, the audit team tested the effectiveness of this
     control in this audit. We developed a statistical sample of the decentralized task
     orders to determine whether the orders were in compliance with the contract as
     well as Federal and DoD contracting and IA requirements. Specifically, we
     assessed fair opportunity, competition, contracting officer qualifications,
     monitoring, and IA requirements (see Appendix B for review checklist and
     Appendix D for results).


Statistical Sample
     The NETCENTS PMO provided the audit team 4,398 NETCENTS task order
     entries. We excluded 2,258 entries (see Appendix A for explanation of the
     exclusions). We grouped the remaining 2,140 decentralized task orders into
     geographical clusters to determine locations with the highest concentration of task
     orders. Because of resource limitations, the audit team chose 6 clusters for a total
     of 1,312 task orders to statistically sample. We relied on the Office of Inspector
     General Quantitative Methods Directorate to randomly select a statistical sample
     of 90 products and 75 service and solution task orders for our review.


Fair Opportunity
     Federal Acquisition Regulation (FAR) Subpart 16.505, “Ordering,” states that
     “the contracting officer must provide each awardee a fair opportunity to be
     considered for each order exceeding $3,000 issued under multiple delivery-order
     contracts or multiple task-order contracts.” The awardees in the NETCENTS
     contract included four small businesses and four large businesses that should have
     been solicited for every task order awarded.

     A projected 34 percent of the 1,312 task orders did not meet fair opportunity
     requirements. Specifically, we identified decentralized contracting officers that
     limited competition to the four small businesses because of the set-aside
     developed in the overall contract. However, in DoD Inspector General Report
     D-2007-106, we reported that the NETCENTS contract small business set-aside
     was improper because the set-aside allocated 20 percent of orders to the small
     business contractors instead of following FAR procedure. FAR Subpart 19.5,
     “Set-Asides for Small Business,” states that “the contracting officer shall set aside
     an individual acquisition or class of acquisitions for competition among small
     business.” As a result, fair opportunity requirements were not met and there was


                                           4

    no guarantee that the DoD customers received the desired products or services for
    the best possible price due to the lack of additional competition. For example, at
    one site for two orders reviewed, the requiring activity obtained quotations from
    one of the “large” contractors in order to get a cost estimate for the order;
    however, the order was only solicited among the four small contractors. The
    quotations obtained from the large contractor in both cases were lower than the
    quotations submitted by the small businesses, but small business contractors were
    chosen for award in both cases.


Competition
    A projected 57 percent of the 1,312 decentralized task orders did not meet
    competition requirements. Specifically, we identified issues with best value
    decisions as well as brand naming in solicitations.

    Best Value Decision. According to FAR Subpart 16.505, “the contracting officer
    shall document in the contract file the rationale for placement and price of each
    order, including the basis for award and the rationale for any tradeoffs among
    cost . . . and non-cost considerations in making the award decision.”

    We identified decentralized contracting officers that did not document technical
    acceptance when required, document best value decisions, or choose the best
    value. As a result, we could not verify or guarantee that the best value was
    achieved for the products or services ordered for each task order. For example,
    one task order was awarded to a contractor that had a bid 54 percent higher than
    another bid. The award was supposedly based on cost, but the customer appeared
    to have a distinct preference for the incumbent contractor and stated the lower bid
    was “too cheap to be good.” Instead of requesting clarification on the customer
    concerns, the decentralized contracting officer chose the higher bid stating, “it
    was determined not to coach contractor A along and ask them for a new quote
    since contractor B had a cardinal knowledge as to what was required for
    installation as they won the last bid.”

    Brand Names. The NETCENTS Ordering Guide prohibited using brand names
    without justification. In addition, FAR Subpart 11.105, “Items Peculiar to One
    Manufacturer,” states agency requirements shall not be written so as to require a
    particular brand name, product, or feature of a product, peculiar to one
    manufacturer, thereby precluding consideration of a product manufactured by
    another company. FAR Subpart 11.104, “Use of Brand Name or Equal Purchase
    Descriptions,” states “brand name or equal purchase descriptions must include, in
    addition to the brand name, a general description of those salient . . .
    characteristics of the brand name item that an ‘equal’ item must meet to be
    acceptable for award.”

    We identified decentralized contracting officers that did not justify specified
    brand names and did not allow for product substitutions or document
    justifications in accordance with the FAR. As a result, the customer may have
    received a particular brand name, product, or feature that was not essential to the
    Government’s requirements, while another companies’ similar product may have
    met or could have been modified to meet the customer needs at a lower price. At
    one decentralized contracting site, brand names were used in 15 of 16 orders of


                                         5

            the decentralized task orders reviewed. This site allowed the customers to solicit
            the requirement on the NETCENTS portal and specify brand names. The
            warranted decentralized contracting officer then reviewed and approved each of
            these requirements as set by the customer in the portal without justifying the
            brand names.


Information Assurance
            A projected 14 percent of the 1,312 decentralized task orders did not meet IA
            requirements, and an additional, projected 25 percent did not define how IA
            product capabilities would be used. Specifically, we identified that the
            Government received products whose IA product capabilities were not certified or
            not adequately communicated to the contractor. Additionally, IT services were
            acquired without specifying IA roles and responsibilities.

            National Security Telecommunications and Information Systems Security
            Policy Number 11 Certification. According to DoD Directive 8500.1,
            “Information Assurance,” all IA or IA-enabled IT hardware, firmware, and
            software components or products incorporated into DoD information systems
            must comply with the evaluation and validation requirements of National Security
            Telecommunications and Information Systems Security Policy (NSTISSP)
            Number 11. The NSTISSP Number 11 Fact sheet states that “the acquisition of
            all Commercial-Off-The-Shelf and Government-Off-The-Shelf IA and
            IA-enabled Information Technology products used on systems entering,
            processing, storing, displaying, or transmitting national security information, shall
            be limited only to those that have been evaluated and validated.” Additionally,
            the overall NETCENTS contract requires that all IA and IA-enabled products
            comply with NSTISSP Number 11.

            The Government received products that were not NSTISSP Number 11-certified
            for IA. We identified decentralized contracting officers that did not communicate
            the need for NSTISSP Number 11 certification for IA or IA-enabled products in
            requests for proposals and bids.4 As a result, the customer could not guarantee
            the availability, integrity, authentication, confidentiality, and non-repudiation of
            information carried on their information systems and networks for which these
            products were purchased. For example, one of the decentralized task orders was
            for the Secret Internet Protocol Router Network. The products purchased for this
            secure network contained encryption5 software, which is an IA capability.
            Various versions of this software were validated and NSTISSP
            Number 11-certified; however, the specific version purchased for this secure
            network was not NSTISSP Number 11-certified. The decentralized contracting
            officer in the solicitation did not inform the contractor of the need for NSTISSP
            Number 11-certified products. Additionally, the decentralized contracting officer
            overseeing this order was unaware and uninformed of IA requirements in general.

4
    A request for proposal or bid is an invitation for providers (the NETCENTS contractors) of a product or
    service to bid on the right to supply that product or service to the individual or entity that issued the
    request.
5
    Encryption is the reversible transformation of data from the original (the plain text) to a difficult-to-
     interpret format (the ciphertext) as a mechanism for protecting its confidentiality, integrity, and
     sometimes its authenticity.


                                                          6

    Information Assurance Roles and Responsibilities. According to DoD
    Instruction 8500.2, “Information Assurance Implementation,” the acquisition or
    outsourcing of IT services must explicitly address Government, service provider,
    and end user IA roles and responsibilities. We identified decentralized task
    orders that did not address IA roles and responsibilities either completely or for
    certain entities. As a result, there was no guarantee that the Government, service
    provider, or end user were aware of their IA roles and responsibilities, or that
    those roles and responsibilities would be fulfilled for the services and products
    purchased. Failure to specify IA roles and responsibilities could result in services
    that compromise the security of DoD information systems. For example, at one
    site, work was performed at a Top Secret cleared facility. However, the task
    order contract file did not detail any security considerations and IA roles and
    responsibilities for the parties involved.


Monitoring
    A projected 84 percent of the 303 service and solution decentralized task orders
    did not have adequate monitoring. Specifically, we identified performance work
    statements written without results-oriented outcomes and measurable performance
    standards; quality assurance surveillance plans (QASP) (or equivalents) did not
    exist or were not written to show how performance standards would be
    monitored; or contracting officer representatives (COR) (or equivalents) were not
    designated to perform the monitoring functions.

    Performance-Based Work Statements. FAR Subpart 37.102, “Policy,” states
    that “performance-based acquisition is the preferred method for acquiring
    services.” Agencies must “use performance-based acquisition methods to the
    maximum extent practicable.” Additionally, FAR Subpart 37.603, “Performance
    Standards” states that “performance standards establish the performance level
    required by the Government to meet the contract requirements. The standards
    shall be measurable and structured to permit an assessment of the contractor’s
    performance.” When the “offerors propose performance standards in response to
    a SOO [statement of objectives], agencies shall evaluate the proposed standards to
    determine if they meet agency needs.” Special clause H107 of the NETCENTS
    overall contracts, “Selection of Contractors for Order Awards,” states that
    performance-based work statements shall be used on all service task orders.

    We identified decentralized performance-based statements of work or
    performance work statements in response to a statement of objectives that did not:

           •	 have measurable performance standards,

           •	 have a method to assess contractor performance against performance
              standards, nor

           •	 have results-orientated outcomes.

    As a result, the contractor’s methods of performing work may not be the most
    efficient and cost-effective methods, and the customer may not be able to assess
    the work performed. For example, task orders with a total value of more than
    $20 million had inadequate performance-based work statements.


                                         7

Quality Assurance Surveillance Plans. FAR Subpart 46.4, “Government
Contract Quality Assurance,” states that a QASP “should be prepared in
conjunction with the preparation of the statement of work.” The QASP “should
specify all work requiring surveillance and the method of surveillance.” FAR
Subpart 46.404 states that “in determining the type and extent of Government
contract quality assurance to be required for contracts at or below the simplified
acquisition threshold, the contracting officer shall consider the criticality of
application of the supplies or services, the amount of possible losses, and the
likelihood of uncontested replacement of defective work.”

The decentralized task order files did not:

       •	 have a QASP (or equivalent) when required;

       •	 identify the needed surveillance in the QASP (or equivalent);

       •	 identify the method of surveillance in the QASP (or equivalent); or

       •	 identify how surveillance was performed for orders at or under
          $100,000.

As a result, there was no guarantee that the Government was receiving the quality
of products and services that were contracted for; or that the products or services
met the needs, expectations, and standards of the Government. At one site, 12
of 16 service orders reviewed did not have a QASP (or equivalent) prepared.

Contracting Officer Representative. Defense Federal Acquisition Regulation
Supplement Procedures, Guidance, and Information 201.6, “Contracting
Authority and Responsibilities,” states that, for contract actions for services
awarded by a DoD Component or by any other Federal agency on behalf of DoD,
contracting officers shall designate a properly trained COR. Defense Federal
Acquisition Regulation Supplement 201.6 states that a COR must be designated
in writing and the designation must specify the extent of the authority to act on
behalf of the contracting officer, identify the limitations on the COR authority,
specify the period covered by the designation, state the authority is not
redelegable, and state that the COR may be held personally liable for
unauthorized acts.

The decentralized task order files did not have:

       •	 official COR designations,

       •	 COR designation letters with all of the characteristics identified in
          the Defense Federal Acquisition Regulation Supplement,

       •	 a COR designated in writing before the period of performance
          began, or

       •	 a COR designated on site.

As a result, there was no guarantee that: contractor performance was assessed
against the contract performance standards; surveillance was being performed; the
person responsible for surveillance was qualified; a COR was aware of his or her
responsibilities; and the products and services met the needs, expectations, and

                                     8

           standards of the Government. Of 23 sites6 visited, 15 did not have a COR or
           quality assurance personnel designated on their task orders.


Task Order Modifications
           We judgmentally selected eight task orders with significant modifications for
           review. Of the eight orders, four had improper modifications valued at
           $139.4 million.

           Task Order Requirements. FAR Subpart 16.505 states that individual orders
           shall clearly describe all services to be performed or supplies to be delivered so
           the full cost or price for the performance of the work can be established when the
           order is placed.

           We identified two task orders (valued at $139.1 million) with non-definitive
           requirements.

                    •	 The first task order had modifications that increased the value of the
                       order from $1.6 million to $140.2 million. The task order was for the
                       design solution for the Second Generation Wireless Local Area
                       Network for the Combat Information Technology System. The task
                       order award was only for the implementation of the Second
                       Generation Wireless Local Area Network at a field service evaluation
                       site and two other sites. By not completely defining the requirements
                       for installation at the other 99 sites before task order award, only the
                       contractor that won the award could receive the additional work added
                       to the order. Therefore, the subsequent $138.6 million in
                       modifications were not appropriate. Fair opportunity was not given to
                       the NETCENTS contractors because competition was not adequate for
                       the bulk of the work on the task order.

                    •	 The second task order created an indefinite-delivery,
                       indefinite-quantity order under a multiple-award, indefinite-delivery,
                       indefinite-quantity contract. Specifically, when equipment was
                       needed, the task order was modified to obtain the equipment rather
                       than placing separate delivery orders on the NETCENT contract. This
                       order did not clearly describe all supplies to be delivered and the full
                       cost was not established when the order was placed. Since the basic
                       task order did not contain the complete requirement, the order was
                       improper. As a result, modifications in the amount of $525,000 were
                       not appropriate. Fair opportunity was not given to the NETCENTS
                       contractors because each contractor did not have a fair chance to bid
                       on the entire requirements.

           Scope of Task Order Modifications. FAR Subpart 52.243-4, “Changes,” states
           that “the contracting officer may, at any time, . . . by written order designated or
           indicated to be a change order, make changes in the work within the general
           scope of the contract.” However, if task orders have been inappropriately

6
    The total numbers of sites visited were 27; however, 23 sites had service and solution task orders
    reviewed.



                                                        9

    modified, and the scope has increased, fair opportunity requirements may have
    been violated since a new order should have been issued and all contractors
    should have had an opportunity to compete. FAR Subpart 16.505 states that the
    contracting officer shall give every “awardee a fair opportunity to be considered
    for each [delivery order or task] order exceeding $3,000.” We identified
    modifications on two task orders that improperly increased the scope of the orders
    by $317,000. One task order identified a particular building where a specific
    engineering study was to be conducted; however, the modifications increased the
    scope of the order to include additional buildings and an additional engineering
    study not previously identified in the original award. Another order identified
    support and administrative services for four specific military bases; however, the
    modifications improperly increased the scope to add an additional base not
    identified in the original award.


Conclusion
    The PMO control of decentralized contracting officers was not adequate.
    Decentralized contracting officers did not adhere to fair opportunity, competition,
    monitoring, and IA requirements. This occurred because the PMO developed an
    improper small business set-aside in the NETCENTS contract and did not oversee
    the decentralized contracting officers to ensure requirements were followed. As a
    result, there was no guarantee that the DoD customers received the desired
    products or services at the best values. In addition, DoD customers may not have
    achieved quality assurance and cost effectiveness; and contractors may not have
    met needs, standards, and expectations of the Government. In addition, the
    availability, integrity, confidentiality, and non-repudiation of information carried
    on information systems and networks were not ensured.


Management Actions
    In DoD Inspector General Report D-2007-106, we recommended that the
    Director, 754th ELSG develop written oversight procedures for decentralized task
    orders in accordance with Air Force Federal Acquisition Regulation Supplement.
    Management concurred with this recommendation and agreed to develop an
    oversight program.


Recommendations
    A.1. We recommend that the Director, 754th Electronic Systems Group
    either develop an oversight program for decentralized task orders that, at a
    minimum, focuses on best value, appropriate use of brand names,
    performance-based acquisition methods, monitoring, and information
    assurance; or centralize the task order process.

    Air Force Comments. The Air Force Deputy Assistant Secretary (Contracting),
    commenting for the Director, 754th ELSG, concurred with the recommendation.
    He stated that the 754th ELSG will enhance the current oversight program for


                                         10 

decentralized task orders to focus on best value, appropriate use of brand names,
performance-based acquisition methods, monitoring, and IA. He also stated that
because of the previous DoD Inspector General Audit Report D-2007-106, “Air
Force Network-Centric Solutions Contract,” Headquarters 754 ELSG put
enhanced processes into place to increase management and oversight of
decentralized orders. He concurred that management and oversight of task orders
issued against indefinite-delivery, indefinite-quantity contracts is an inherent
responsibility of the owner of the contract per DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” and Air Force Federal
Acquisition Regulation Supplement section 5316.505-90, “Decentralized
Ordering.” But, he also stated that acquisition experts, with the assistance of
warranted contracting officers, are responsible for ensuring compliance with the
FAR. In addition, he stated that the PMO instituted an enhanced oversight
process whereby all service task orders are reviewed for compliance with the
terms and conditions of the basic NETCENTS contract and IA concerns.

The Deputy Assistant Secretary stated that the NETCENTS contract has been
modified (P00013) to address the brand name concern more clearly by
incorporating into the contract Section H Clause H115, in full text, and FAR
Subpart 52.211-6. In addition, he stated that the PMO has updated the
NETCENTS Ordering Guide. He stated that IA and security requirements were
updated in the NETCENTS Ordering Guide via contract modifications P00009
and P00011 on October 19, 2006, and December 19, 2006, respectively. In
addition, he stated that the NETCENTS PMO agreed to conduct reviews for
decentralized orders to assess compliance with the scope of the NETCENTS
contract and all applicable DoD and Federal policies. Lastly, he stated that the
754th ELSG security manager will serve as the individual responsible for security
and information assurance reviews with assistance from technical and contracting
teams as needed.

Audit Response. The Air Force comments were responsive to the
recommendation.

A.2. We recommend that the Director, 754th Electronic Systems Group
allow all of the contractors fair opportunity to bid on each task order unless
a valid exception applies and then document all exceptions in the contract
file.

Air Force Comments. The Air Force Deputy Assistant Secretary (Contracting),
commenting for the Director, 754th ELSG, concurred with the recommendation.
He stated that the contract was modified via P00013 to remove the small business
set-aside language on September 5, 2007, to ensure that fair opportunity is given
for all orders exceeding $3,000.

Audit Response. The Air Force comments were responsive to the
recommendation.




                                   11 

                    B. 	Program Management Office Order
                        Tracking and Fee Collection
                    The NETCENTS PMO did not have adequate internal controls to track
                    orders awarded under the NETCENTS contract or to ensure that all fees
                    were being collected. This occurred because the NETCENTS PMO did
                    not centrally record NETCENTS order information and relied on outside
                    sources for the information. As a result, the NETCENTS PMO
                    decentralized tracking process did not account for 117 task orders or task
                    order modifications awarded under the NETCENTS contract valued at
                    $27.4 million, recorded 800 orders with incomplete information,
                    improperly labeled at least 15 orders, and misreported the value of at least
                    10 task orders by $1.3 million. Therefore, the total value of NETCENTS
                    task orders was unknown, and the NETCENTS PMO could not ensure that
                    the contract ceiling was not exceeded. In addition, as of April 2007, the
                    PMO had collected only $8.2 million in fees while its current
                    decentralized tracking process indicated that $16.3 million in fees should
                    have been collected.


PMO Order Tracking
           The NETCENTS PMO did not have adequate internal controls to track the
           decentralized NETCENTS task orders. The NETCENTS PMO provided a
           spreadsheet of decentralized task orders, task order modifications, and credit card
           orders7 placed under the NETCENTS contract. A NETCENTS program
           management official stated that the NETCENTS PMO spreadsheet was used to
           track the number of task orders issued, as well as other information including the
           total dollar value of all task orders. According to the NETCENTS program
           management official, the spreadsheet was manually created using Electronic
           Document Access (EDA)8 queries and contractor-provided data.9 The official
           stated that both EDA and the contractor information were known to be
           incomplete. After review of the spreadsheet, the audit team identified:

                     •   117 missing orders valued at $27.4 million,

                     •   800 incomplete orders,

                     •   15 improperly labeled orders, and

                     •   10 orders with $1.3 million in value errors.


7
    Credit card orders more than $3,000 should be associated with a task order number. However, these
    entries were not associated with a task order number or were less than $3,000. As a result, the
    contractors provided a credit card code that was internal to the contractor’s organization instead.
8
    EDA is an on-line document access system that provides secure on-line access, storage, and retrieval of
    contracts and contract modifications for use by DoD.
9
    Under NETCENTS, contractors are required to report all task orders upon receipt of award via the use of
    the Extensible Markup Language data format.



                                                      12 

            Number of Orders. We compared the PMO spreadsheet to the task order and
            task order modification data extracted from Federal Procurement Data
            System-Next Generation (FPDS-NG)10 and lists of task orders and task order
            modifications from the decentralized sites visited. We identified 117 task orders,11
            valued at $27.4 million that were not included in the NETCENTS PMO
            spreadsheet. Specifically, FPDS-NG contained 103 task orders, valued at
            $19.5 million,12 that were not included on the PMO spreadsheet and decentralized
            contracting office lists contained 14 task orders, valued at $7.9 million13 that were
            not included on the PMO spreadsheet. Potentially, more task orders could be
            missing in addition to the 117 orders identified because requested only task order
            lists from the 27 sites visited and the validity of the FPDS-NG database.

            We preformed accuracy tests using information from our 165 statistically selected
            task orders to verify the validity of the FPDS-NG database. Our data tests showed
            that FPDS-NG contained errors. Specifically, FPDS-NG did not include 18 of the
            165 orders audited and contained 8 significant value errors. However, we were
            unable to determine with certainty how many task orders were missing from
            FPDS-NG or the value of the missing task order.14 As a result, we could not
            validate that the NETCENTS PMO spreadsheet was not missing additional task
            orders or the values of those task orders.

            Order Information. The NETCENTS PMO spreadsheet contained 4,398 entries.
            We removed 114 FY 2007 entries from the spreadsheet due to audit scope. We
            reviewed the remaining 4,284 entries to determine whether they were complete.
            We considered an entry to be incomplete if it was missing a dollar value, order
            date, or an order code. Without a dollar value, the PMO would be unable to
            properly identify ceiling amounts or usage fees. Without an order date, the PMO
            would be unable to determine when the usage fees would be collected. And
            finally, without a task order number or order code association, the PMO would be
            unable to determine the location of the contracting file and whether it was
            competed under the fair opportunity requirements for multiple-award,
            indefinite-delivery, indefinite-quantity contracts. Of the 4,284 entries included in
            the spreadsheet, 800 had incomplete information. When asked why the
            spreadsheet contained incomplete information, a NETCENTS program
            management official stated that contractors did not always provide complete or
            correctly formatted information.

            Order Labeling. Of the 165 task orders reviewed for the statistical sample, the
            PMO improperly labeled 15 orders as a product or a service order. Initially, we
            used the NETCENTS PMO spreadsheet to distinguish between product and
            service task orders. Task orders labeled with a ‘P’ were identified as product
10
      FPDS-NG contains task order data that the Federal Government uses to create recurring and special
     reports to the President, Congress, Government Accountability Office, Federal Executive agencies, and
     the general public.
11
     From this point forward, the use of the term “task orders” will include both task orders and task order
     modifications.
12
     This includes 26 task orders overstated by $9.6 million and 77 task orders understated by $10 million.
13
     This includes 1 task order overstated by $3,234 and 13 task orders understated by $7,875,895.
14
      Although FPDS-NG data are incomplete and contain some errors, they are sufficient evidence to show
     that the NETCENTS PMO spreadsheet is incomplete because FPDS-NG contains task orders that the
     NETCENTS PMO spreadsheet does not and we were able to establish the validity of some of the missing
     orders.



                                                        13 

            orders, while task orders labeled with an ‘S’ or a ‘PS’ were identified as service
            orders. However, upon task order review, we identified 15 orders that were not
            labeled properly. Specifically, we identified eight product task orders that were
            actually service orders and seven service task orders that were actually product
            orders. However, because we reviewed only the 165 statistically sampled task
            orders, there could be more mislabeled task orders.

            Order Value. The NETCENTS PMO spreadsheet contained several cost errors
            within our sample. We compared the PMO spreadsheet values for the 165
            statistical sample task orders to the actual task order values located at the sites.
            Ten task orders were incorrectly valued by $1.3 million.15 Therefore, the PMO
            spreadsheet was inaccurate, and the NETCENTS PMO would be unable to
            effectively track the contract ceiling amount and usage fees. Additionally, these
            numbers only take into account the 165 statistically sampled task orders.
            Therefore, it is possible that more task orders contain inaccurate values.


Fee Collection
            The NETCENTS PMO did not have adequate internal controls to ensure that its
            1 percent usage fee was being collected. We identified an $8 million difference
            between actual fees collected and fees that should have been collected. We asked
            the NETCENTS PMO, as well as financial personnel from the 754th ELSG, to
            further explain the fee collection process. The NETCENTS PMO response was
            vague, and provided no documentation to validate its process. The following
            contains the NETCENTS PMO description of its fee collection internal controls,
            the difference in fees, and our conclusions.

            The NETCENTS PMO described its five-step process, as follows:

                •	 The PMO collects sales (task order awards) from EDA, FPDS-NG, and
                   mandatory submittals from issuing contracting officers.

                •	 Financial management personnel validate the Contractor Check Report16
                   and a copy of the usage fee check against the individual order payments
                   from Defense Finance and Accounting Service.

                •	 The financial management personnel validate the orders for which the fees
                   were received against information from EDA, FPDS-NG, and contracting
                   officer-provided data to ensure the contractor has remitted the correct
                   usage payment.

                •	 The financial management personnel update their projected revenue,
                   which the financial personnel derived from the invoiced amounts, to
                   ensure reports were submitted for each contractor and to identify whether
                   the usage fee from a NETCENTS prime contractor was received for a
                   given month.

15
     This includes four orders overstated by $635,000 and six orders understated by $658,000.
16
      The Contractor Check Report is a self-reporting tool provided monthly by each contractor identifying
     fees submitted.



                                                       14 

       •	 The PMO reconciles the fee collections with the projected revenue, which
          the PMO derived from EDA, FPDS-NG, and mandatory submittals from
          issuing contracting officers.

    The NETCENTS PMO was unable to provide a schedule detailing the collection
    of fees. According to a program management official, the $8 million difference
    existed because of a lag time in the collection of the 1 percent NETCENTS
    contract fee. The NETCENTS PMO stated that the payment process sometimes
    gets delayed from the agency to the Defense Finance and Accounting Service,
    from the Defense Finance and Accounting Service to the contractor, and then
    finally from the contractor to the NETCENTS PMO. Contractors did not pay the
    NETCENTS PMO until they were paid and the contractors did not get paid until
    work was finished or after milestones on a task order were achieved. However,
    the NETCENTS PMO was unable to provide a schedule indicating when the
    usage fees for each task order would be collected. Additionally, a program
    management official explained that the NETCENTS PMO spreadsheet was not
    used for revenue collection because it was based on obligation amounts, while the
    revenue collection was based upon the work funded, performed, and invoiced
    during the period of performance.

    The internal controls were not adequate or auditable. The NETCENTS PMO
    spreadsheet was the primary basis for tracking the total orders, and order values
    were not comprehensive or correct. In addition, the NETCENTS PMO and the
    financial personnel calculated projected revenues differently. The NETCENTS
    PMO also did not have a schedule identifying when the $8 million would be
    collected. Lastly, as shown below, the fee collection process was reactive and
    dependent on outside sources.

       •	 The NETCENTS PMO relied on contractor data for the amount of fee to
          be collected. However, there was no control to ensure that the contractor
          would report correct task order information or all task orders placed.

       •	 The NETCENTS PMO relied on decentralized quality assurance
          personnel for order information and the cumulative amount of fee to be
          collected. We have shown that the decentralized contracting officers were
          not a reliable source of information because they did not adequately
          enforce Federal and DoD contract requirements.

       •	 The NETCENTS PMO relied on EDA and FPDS-NG to identify order
          information and validate the data obtained even though we determined
          that FPDS-NG contained incomplete and inaccurate task order
          information. Also, neither EDA nor FPDS-NG included credit card
          orders.


Conclusion
    The NETCENTS PMO spreadsheet of orders was incomplete. Specifically, the
    spreadsheet did not contain all orders, had orders with incomplete information,
    and had orders with incorrect values. In addition, the PMO did not have auditable
    controls to ensure the collection of usage fees. This occurred because the PMO



                                        15 

    did not centrally record order information and relied on outside sources to obtain
    the information.


Recommendations
    B. We recommend that the Director, 754th Electronic Systems Group
       centrally record all Air Force Network-Centric Solutions Contract
       orders, and develop auditable processes to track orders and fees owed.

    Air Force Comments. The Air Force Deputy Assistant Secretary (Contracting),
    commenting for the Director, 754th ELSG, concurred that an improved and more
    auditable usage-fee collection process is required. He stated that the HQ 754th
    ELSG will review and improve the oversight responsibilities to ensure more
    accurate and complete accountability for usage fees is accomplished no later than
    January 31, 2008.

    Audit Response. The Air Force comments were responsive to the
    recommendation.




                                        16 

                     C. 	DoD Use of the General Services
                         Administration to Place NETCENTS
                         Task Orders
                     DoD customers were paying the General Services Administration (GSA)
                     to place NETCENTS task orders instead of using DoD contracting offices.
                     Specifically, GSA placed 91 orders for DoD customers on the Air Force
                     NETCENTS contract. This occurred because the DoD customers did not
                     use best business practices, and there were no Federal or DoD policies for
                     these types of acquisitions. As a result, DoD wasted approximately
                     $607,000, which could have been used for warfighter needs and
                     approximately 70 percent of these orders were awarded to one of the eight
                     NETCENTS contractors.


General Services Administration Ordering Activity on the
  NETCENTS Contract
            We identified 91 task orders issued by GSA for DoD customers17 that used the
            Air Force NETCENTS contract based on information from the NETCENTS
            Program Management Office and the FPDS-NG.18 The approximate value of
            these orders was $21.9 million.


Best Business Practice
            The use of GSA was not a best business practice since options were available
            within DoD at a lower cost. Generally, GSA charged DoD a fee between 2 and
            5 percent for these assisted acquisitions. For orders under $25,000, GSA charged
            a flat fee of $500. The DoD customers should have used their local contracting
            offices at no charge. If a local contracting office did not exist or if it was
            unavailable, the NETCENTS PMO advertised in its NETCENTS Ordering Guide
            that it would provide assisted acquisition services for $150 (orders $2,500 and
            less), 0.6 percent (orders between $2,500 and $13 million), or $7,800 (above $13
            million). Therefore, the use of DoD contracting offices would have been less
            expensive.


Policy on Assisted Acquisitions
            We did not identify any Federal or DoD policy that addressed contracts awarded
            by a non-DoD agency on behalf of a DoD customer using a DoD contract. The
17
     Includes Army, Navy, Air Force, and other DoD agencies.
18
      FPDS-NG contains computer-processed data and we determined that it was not complete and had some
     inaccuracies. Therefore, it is possible that more than 91 of these orders were placed. Also, we validated
     that 74 of the 91 orders were actual contract actions; however, we did not have time to validate the other
     17, 16 of which were placed in FY 2007.



                                                        17 

           Property and Economy Acts were not applicable because these acquisitions were
           not in the best interest of the Government. The FAR and Defense Federal
           Acquisition Regulation Supplement were silent on these types of acquisitions.
           One DoD memorandum addressed assisted acquisition, but only when a non-DoD
           contract was used. Specifically, the Under Secretary of Defense for Acquisition,
           Technology, and Logistics reissued a memorandum, “Proper Use of Non-DoD
           Contracts,” July 20, 2005. This memorandum addresses certain procedures that
           Military Departments and Defense agencies must establish for reviewing and
           approving the use of non-DoD contract vehicles when procuring supplies and
           services. The memorandum states that it is applicable to assisted acquisitions;
           however, NETCENTS is a DoD contract. It seems prudent that DoD customers
           would use DoD resources to award orders on DoD’s own contract; however, we
           found that no policy exists to address these unique circumstances.


Costs Associated With GSA Assisted Acquisition Services
           For the 91 orders we identified, DoD customers wasted approximately $607,000
           in GSA fees, which could have been put to better use supporting the warfighter.
           In addition, we were unable to determine whether fair opportunity was given to
           all contractors because approximately 70 percent of these orders were awarded to
           one of the eight NETCENTS contractors.


Recommendation
           C.1. We recommend that the Acquisition Executives of the Army, Navy, and
           Air Force investigate the circumstances of these acquisitions and take
           administrative action against the DoD customers that did not pursue DoD
           contracting options before using GSA assistance.19

           Army Comments. The Deputy Assistant Secretary of the Army (Policy and
           Procurement) concurred with the recommendation. She stated that the Army
           would investigate the three U.S. Army actions identified by the audit. She also
           stated that, based on the investigation, the Army would determine what
           administrative action is appropriate. Finally, she stated the investigation would
           be completed by December 30, 2007.

           Navy Comments. The Deputy Assistant Secretary of the Navy (Acquisition and
           Logistics Management) concurred with the recommendation. He stated that the
           Navy is investigating the two Department of the Navy orders (GST0905DF0592
           and GST0905DF0793). He also stated that the information-gathering process to
           determine what happened was under way, but they do not intend to complete the
           review until the end of the calendar year (December 31, 2007), at which time they
           will provide additional information.

           The Deputy Assistant Secretary stated that the Department of the Navy has issued
           a policy (Proper Use of Non-DoD Contracts) that requires Department of the
           Navy contracting departments to establish procedures for reviewing and

19
     Copies of the GSA orders can be provided on request.



                                                     18 

approving the use of non-DoD contract vehicles for supplies or services in excess
of the simplified acquisition threshold. He stated that these procedures have been
implemented throughout the Department of the Navy.

Air Force Comments. The Air Force Deputy Assistant Secretary (Contracting),
commenting for the Director, 754th ELSG, concurred with the recommendation.
He stated that the Air Force will investigate the GSA task orders initiated by Air
Force users and will research the circumstances behind each Air Force-generated
task order. He also stated that resulting action, either administrative or education,
will be based on the findings of the investigation, and they intend to complete the
investigation by December 31, 2007.

Audit Response. The Army, Navy, and Air Force comments were responsive to
the recommendation.

C.2. We recommend that the Director, Defense Procurement and Acquisition
Policy issue policy governing the use of assisted acquisitions when a non-DoD
agency places an order for a DoD customer using a DoD contract. This
policy should, at a minimum, require justifications that identify these
assisted acquisitions are in the best interest of the Government and that the
costs for assisted acquisition services are reasonable.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Defense Procurement and Acquisition Policy
concurred with the recommendation. He stated that the Department will issue a
policy memorandum on the use of assisted acquisitions when a non-DoD agency
places an order for a DoD customer using a DoD contract. He stated that the
memorandum was expected to be issued by October 31, 2007.

Audit Response. The Under Secretary of Defense for Acquisition, Technology,
and Logistics comments were responsive to the recommendation.




                                     19 

Appendix A. Scope and Methodology 

           We conducted this performance audit from November 2006 through August 2007
           in accordance with generally accepted government auditing standards. Those
           standards require that we plan and perform the audit to obtain sufficient,
           appropriate evidence to provide a reasonable basis for our findings and
           conclusions based on our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions based on our audit
           objectives. This is the second audit regarding the NETCENTS contract.

           We conducted this audit at various U.S. Military installations. Specifically, we
           performed site visits and interviewed contracting officers, contracting specialists,
           and other supporting contracting office personnel responsible for issuing
           NETCENTS task orders at 27 contracting office locations throughout the
           continental United States. In addition we interviewed personnel responsible for
           the NETCENTS contract at the 754th ELSG at Gunter Air Force Annex in
           Montgomery, Alabama.

           To evaluate whether the NETCENTS task orders complied with the appropriate
           Federal and DoD criteria, we reviewed Federal and DoD acquisition
           requirements, DoD Directives, DoD Instructions, and Air Force Instructions
           relating to contracting and IA and developed a review checklist. See Appendix B
           for the review checklist.

           We scoped our audit sample to include a universe of 1,312 decentralized task
           orders issued from FY 2004 through the end of FY 2006. The NETCENTS
           Program Management Office (PMO) provided the audit team 4,398 NETCENTS
           task order entries. We excluded the following entries in sequence:

                •	 113 entries approved in FY 2007 were excluded because the scope of our
                   audit was limited to task orders from FY 2004 through FY 2006.

                •	 440 entries that were modifications of existing task orders were excluded
                   because these task orders, if left in the universe, could result in the same
                   task order being chosen more than once in the statistical sample.

                •	 850 entries∗ that had incomplete information were excluded because these
                   entries did not have enough information to determine where the
                   contracting files were located.

                •	 473 entries that were less than $3,000 were excluded because the task
                   orders are below the micropurchase threshold and could be purchased with
                   credit cards by non-contracting officers.



∗
    Entries were excluded from the universe because of missing order codes. Later when we reviewed the
    spreadsheet in more detail to determine how many incomplete entries existed, we found that some
    entries’ order code information was not entered in the order code column but the information could be
    found in another column. To error on the side of caution, we found those entries to be complete as part
    of finding B, but since the statistical sample had already been created, we reported them as incomplete as
    part of the scope and methodology section.



                                                       20 

   •	 71 entries that were issued by non-DoD contracting officers were
      excluded because these contracting officers were outside our review.

   •	 208 entries with the site code of 6K were excluded because this site code
      corresponds to Gunter Annex at Maxwell Air Force Base, making the
      order centralized.

   •	 103 entries that were credit card orders above $3,000 were excluded from
      the sample because these orders had a site code of CC (credit card) that
      could not be tracked back to a contracting office.

Because of resource restrictions we grouped the remaining 2,140 task orders into
geographical clusters to determine the magnitude of orders by site. We chose six
clusters or sites with the largest number of task orders with the following goals in
mind:

   •	 pick clusters or sites with enough orders to perform a statistically relevant
      sample,

   •	 keep within the resource allocations of the audit, and

   •	 maximize the number of service task orders in the sample.

The 6 clusters resulted in a universe of 1,009 product and 303 service orders that
the Office of Inspector General Quantitative Methods Directorate used to select a
statistical sample of 165 orders (90 products and 75 services) to review. We
reviewed the 165 task orders sampled to determine whether the orders complied
with Federal and DoD contracting and acquisition policy relating to competition,
surveillance, contracting officer qualifications, and information assurance. We
also judgmentally selected an additional eight orders that had modifications,
which significantly increased the overall value of the order, to determine whether
the orders complied with Federal and DoD contracting and acquisition policy.

We analyzed the completeness and reliability of the PMO spreadsheet by
comparing it with other sources of order information including the FPDS-NG,
EDA, and contracting office records retrieved during site visits. In addition, we
reviewed and analyzed the PMO process for fee collection to determine whether it
had sufficient internal controls to adequately collect all NETCENTS fees.

We analyzed the PMO spreadsheet and the FPDS-NG to determine whether DoD
customers placed orders under the NETCENTS contract by using GSA
contracting officers. We reviewed United States Code and Federal and DoD
acquisition policy to determine whether these task orders constituted acceptable
uses of GSA contracting officers. We also obtained a legal opinion from the DoD
Office of Inspector General, General Counsel to assess the legal authority for
GSA contracting officers to order from DoD contracts for DoD customers.

Use of Computer-Processed Data. We used computer-processed data from the
FPDS-NG to determine whether the NETCENTS PMO spreadsheet included all
NETCENTS task orders. Agencies are required to input data for contracts above
$3,000 into FPDS-NG to include the cost of contract actions. FPDS-NG allows
agencies several options (manual, machine-to-machine, or batch process) to enter
data. FPDS-NG provides a mechanism for assembling, organizing, and


                                     21 

     presenting contract placement data for users. FPDS-NG requires that data pass
     validation rules and that each agency certify the validity and completeness of this
     data. We determined that these controls were not sufficient to reduce the risk of
     using FPDS-NG data to an acceptable level; therefore, we conducted direct data
     testing. We performed completeness, accuracy, and validity tests on FPDS-NG
     data using information we verified during the audit of our 165 statistically
     selected task orders and contracting documents that we obtained from EDA.
     Although we determined that the FPDS-NG data were incomplete and contain
     some errors, we considered the data sufficient evidence to show that the
     NETCENTS PMO spreadsheet was incomplete because FPDS-NG contained task
     orders that the NETCENTS PMO spreadsheet did not contain.

     Use of Technical Assistance. The Office of Inspector General Quantitative
     Methods Directorate developed the statistical sample of product and service task
     orders to be audited. In addition, the Quantitative Methods Directorate performed
     calculations to make statistically defensible estimates for the universe of task
     orders based on the audited sample results and assisted in interpreting and using
     the estimates correctly. See Appendix C for the results.

     Government Accountability Office High-Risk Area. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the high-risk areas relating to protecting the Federal
     Government’s information-sharing mechanisms and the Nation’s critical
     infrastructure, contract management, and management of interagency contracting.


Prior Coverage
     During the last 5 years, the DoD Inspector General and the Air Force Audit
     Agency have issued two reports relating to the NETCENTS contract.
     Unrestricted DoD Inspector General reports can be accessed at
     http://www.dodig.mil/audit/reports. Unrestricted Air Force Audit Agency reports
     can be accessed at https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

DoD Inspector General
     DoD Inspector General Report No. D-2007-106, “Air Force Network-Centric
     Solutions Contract,” June 29, 2007

Air Force Audit Agency
     Air Force Audit Agency Report No. F2007-0011-FB4000, “Network Centric
     Solutions Contract Implementation and Management,” September 4, 2007




                                         22 

Appendix B. Audit Checklist Questions

   Competition
        Did the contracting office adequately compete the task order among all eight
        NETCENTS contractors? (FAR Subpart 16.505)

        Is the contracting officer following the FAR fair opportunity requirements by
        NOT first issuing a small dollar value contract and then using follow-on
        sole-source contracts for greater dollar values based on the follow-on exception to
        the fair opportunity process? (FAR Subpart 16.505[b][4])

        Did the contracting officer document the rationale for best value in the
        contracting file? (FAR Subpart 16.505[b])

        Does the task order allow for adequate competition by not asking for brand names
        in the Request for Proposals or Request for Quotes? (FAR Subpart 16.505[b][4],
        FAR Subpart 11.105, and FAR Subpart 11.104)

   Contracting Officer Qualifications
        Was the person who placed the task order qualified? (FAR Subpart 1.603-3)

   Task Order Surveillance and Monitoring (Service Task Orders Only)
        Is the task order’s performance-based work statement performance-based? (FAR
        Subpart 37.102, FAR Subpart 37.601, FAR Subpart 37.602, FAR Subpart 37.603,
        and Special Clause H107 of the NETCENTS contract)

        Was a Quality Assurance Surveillance Plan developed for the task order?
        (FAR Subpart 46.401 and FAR Subpart 46.404)

        Did the contracting officer officially designate a Contracting Officer’s
        Representative to monitor the contractor’s performance? (Defense Federal
        Acquisition Regulation Supplement 201.602-2 and Air Force Instruction 63-124)

   Information Assurance
        For services only, are Government, service provider, and end user IA roles and
        responsibilities explicitly addressed in the task order? (DoD Instruction 8500.2)

        For services only, are all subcontractors authorized to perform work on DoD
        contracts? (FAR Subpart 25.701 and FAR Subpart 9.402)

        Were all products ordered for IA purposes certified under the NSTISSP
        Number 11, “National Policy Governing the Acquisition of IA and IA-Enabled
        Information Technology Products”? (DoD Directive 8500.1 and NSTISSP
        Number 11 Factsheet)



                                            23 

Appendix C. 	Projection Results From the
             Statistical Sample
           We requested 4 statistical projections for the universe of 1,312 service and
           product task orders and 1 projection for the subuniverse of 303 service task orders
           based on 165 task orders sampled (see Appendix D for audit results). The five
           projections regarded the number of task orders with fair opportunity, competition,
           and monitoring errors and an undeterminable usage of information assurance
           product capabilities (see Appendix B for areas audited). The projections and
           confidence intervals are based on a collective 95 percent confidence level. The
           95 percent confidence level means there is a 5 percent risk that one or more
           confidence intervals will not encompass the true population value.

           The projection results are in the following five tables. Using the information
           from Table 1, we can project that between 23 percent and 45.3 percent
           (confidence interval) of the 1,312 task orders had fair opportunity errors,1 with a
           point estimate2 of 34.1 percent. The corresponding number of task orders range
           from 301 to 594, with a point estimate of 448. The next four tables can be
           interpreted the same way.

              Table 1. Estimated Number of Task Orders With Fair Opportunity Errors

                                    Lower Bound                 Point Estimate           Upper Bound

             Rate                        0.230                       0.341                   0.453

             Number                        301                           448                  594




             Table 2. Estimated Number of Task Orders With Other Competition Errors

                                    Lower Bound                 Point Estimate           Upper Bound

             Rate                        0.458                       0.570                   0.681

             Number                        601                           747                  894




1
    In this instance, error is defined as not meeting the requirement.
2
    The point estimate falls halfway between the upper and lower bounds, and gives us a single numerical
    value to represent the projection.



                                                        24
          Table 3. Estimated Number of Task Orders With Information
                               Assurance Errors

                     Lower Bound             Point Estimate         Upper Bound

 Rate                    0.059                    0.143                 0.226

 Number                    77                      187                   297



          Table 4. Estimated Number of Task Orders With Information
                           Assurance Undetermined

                      Lower Bound            Point Estimate         Upper Bound

 Rate                     0.145                   0.248                 0.352

 Number                   190                      326                   461

The projection reported in Table 5 is based on the 75 task orders sampled statistically
from the 303 that were classified as service task orders. Our audit work revealed that
only 68 were actually service task orders; the true number of service task orders is
unknown. However, we can use the sample results for the 75 to estimate the proportion
of actual service task orders that have monitoring errors.

          Table 5. Estimated Number of Task Orders With Monitoring
                            Errors (Services Only)

                     Lower Bound             Point Estimate         Upper Bound

 Rate                    0.738                    0.839                 0.939




                                           25 

Appendix D. 	Audit Results of the Statistical
             Sample


Checklist Areas1	                                     Yes No N/A Undeterminable        Total


Competition
     Fair Opportunity                                 111     54     N/A         N/A   165
     No Follow-On Sole-Source                         161      4     N/A         N/A   165
     Best Value                                       141     24     N/A         N/A   165
     Brand Names                                       90     75     N/A         N/A   165
Surveillance
     Performance Work Statement2                       54     22     N/A         N/A    76
                                                  2
     Quality Assurance Surveillance Plan               44     32     N/A         N/A    76
                                                 2
     Contracting Officer’s Representitive              12     64     N/A         N/A    76
Contracting Officer Qualifications3                   165      0     N/A         N/A   165
Information Assurance
     IA Roles and Responsibilities2                    67      9     N/A         N/A    76
     Subcontractors Authorization2                     74      2     N/A         N/A    76
     NSTISSP Number 11                                  8     16     103         38    165




1
    See Appendix B for a complete list of the checklist questions.
2
    These questions pertain to services only.
3
    This area was not discussed in the report because we identified no issues.



                                                       26 

Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Networks and Information Integration/DoD Chief
   Information Officer)
Director, Program Analysis and Evaluation
Director, Administration and Management

Joint Staff
Vice Director, Joint Chiefs of Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, National Security Agency




                                          27 

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      28 

Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments


                          OFFICE O F THE UNDER SECRETARY O F DEFENSE

                                            3000 DEFENSE PENTAGON
                                           WASHINGTON, DC 20301-3000

                                                                                            SEP 1 2 2007
    ACQUISITION, 

    TECHNOLOGY 

   A N D LOGISTICS


         M E M O R A N D U M FOR ASSISTANT INSPECTOR GENERAL, PROGRAM
                                   DIRECTOR ACQUISITION A N D CONTRACT
                                   MANAGEMENT



         THROUGH: DIRECTOR, ACQUISITION RESOURCES A N D A N A L Y S I S

         SUBJECT; R e s p o n s e to OIG Draft Report Notification "On Task Orders o n the Air
                  Force Network-Centric Solutions Contract"
                  (Project N o . D 2 0 0 7 - D 0 0 0 A S - 0 0 7 4 . 0 0 0 )



                  A s requested, I am providing the U S D ( A T & L ) response to recommendation C.2.
        o f the subject report.

        Recommendation C.2.
        T h e OIG recommended that the Director, D e f e n s e Procurement and Acquisition Policy
        issue policy governing the u s e o f assisted acquisitions w h e n a n o n - D o D agency places an
        order for a D o D customer using a D o D contract. This policy should, at a minimum,
        require justifications that identify these assisted acquisitions are in the best interest o f the
        Government and that the cost for assisted acquisitions services are reasonable.

        Response:
        Concur. The Department will issue a policy m e m o on the u s e o f assisted acquisitions
        w h e n a n o n - D o D agency places an order for D o D customers using a D o D contract. W e
        expect t o issue the p o l i c y m e m o by October 3 1 , 2 0 0 7 .

               M y P O C is Michael Canales. H e can b e reached at ( 7 0 3 ) 6 9 5 - 8 5 7 1 or via e-mail
        at michael.canales@osd.mil.



                                                      Shay D. Assad
                                                      Director, D e f e n s e Procurement
                                                        and Acquisition Policy

        cc: 

        D U S D (I&E) 

        D U S D (C) 





                                                         29 

Department of Army Comments

                                 DEPARTMENT OF THE ARMY
                           OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 

                               ACQUISITION LOGISTICS AND TECHNOLOGY 

                                         103 ARMY PENTAGON 

                                      WASHINGTON DC 20310-0103 



                                           Oct 0 1 2007

    SAAL-PP



    MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL, AUDIT POLICY AND
                     OVERSIGHT, INSPECTOR GENERAL DEPARTMENT
                     OF DEFENSE, 400 ARMY NAVY DRIVE,
                     ARLINGTON, VA 22202

    SUBJECT: Draft Report: Task Orders on the Air Force Network-Centric
             Solutions Contract-Project No. D2007-D00AS-0074 0000
             Dated August 8, 2007



          The Deputy Assistant Secretary of the Army (Policy and Procurement) has
    reviewed this report. We concur with recommendation C.1.

          Recommendation C.1 recommends that the Army Acquisition Executive
    investigate the circumstances relating to these acquisitions and take appropriate action
    against the U.S. Army customers that did not pursue using a Department of Defense
    contracting option before using the General Services Administration assistance.

            U.S. Army Reply: Concur. We will investigate the three U.S. Army actions
    identified by the auditor. Based on the investigation, we will determine what
    administrative action is appropriate. We plan to have this investigation completed by
    December 30, 2007.




                                 Deputy Assistant Secretary of the Army
                                        (Policy and Procurement)




                                                 30 

Department of the Navy Comments
                                                                                                Final Report
                                                                                                 Reference


                                    DEPARTMENT OF THE NAVY
                                  OFFICE OF THE ASSISTANT SECRETARY     SEP    18     2007
                                RESEARCH, DEVELOPMENT AND ACQUISITION
                                          1000 NAVY PENTAGON
                                       WASHINGTON DC 20350-1000




     MEMORANDUM FOR DEPARTMENT OP DEFENSE INSPECTOR                     GENERAL 


     Sub]:      RESPONSE T O COMMENTS DRAFT DOD-IG A U D I T O N TASK ORDERS ON
                THE AIR FORCE NETWORK-CENTRIC SOLUTIONS CONTRACT
                (Project N O . D2007-D000AS-0074.000] (DATED AUGUST 8, 2007)

     Ref:       (a) Draft DOD-IG Audit Project Number D2007-D000AS­
                    0074.000 dated August 8, 2007 


     Encl:      (1) DoN p o l i c y m e m o entitled "Proper U s e Of Non-DoD 

                                                                                                omitted due
                    Contracts" dated December 20, 2 0 04 
                                      to length

               As recommended by reference (a) recommendation C . 1 , w e a r e
     investigating the two Department of t h e Navy (DON) orders
     (GST0905DF0592 and G S T 0 9 0 5 D F 0 7 9 3 ) , w h i c h were p l a c e d by G S A o n
     the subject A i r F o r c e contract. W e a r e in the process of
     g a t h e r i n g all available information to determine what actually
     happened,          with this being the end of the fiscal y e a r , w e don't
     expect to complete our review until the end of the calendar
     year, at w h i c h time w e will p r o v i d e y o u w i t h additional
     information,

           The D o N has instituted a policy, enclosure ( 1 ) , which
     requires DoN contracting departments to establish procedures for
     reviewing and approving the u s e of non-DoD contract vehicles for
     supplies or services in excess of the simplified acquisition
     threshold.     These procedures have been implemented throughout
     the D O N .

              M y point of contact is M r . Ronald G. Ostrom ( 7 0 3 ) 6 9 3 - 4 0 1 2 ,
     fax     ( 7 0 3 ) 6 1 4 - 4 7 1 3 , or by email (ronald.ostrom@navy.mil).




                                        Bruce Sharp 

                                        Director, Program Analysis and Business 

                                          Transformation 

                                        Deputy Assistant Secretary of the N a v y 

                                          (Acquisition & Logistics Management) 





                                                 31 

Department of the Air Force Comments




   OFFICE OF THE ASSISTANT SECRETARY                                           SEP 20 2007
         MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING
                        OFFICE OF THE INSPECTOR GENERAL
                        DEPARTMENT OF DEFENSE

         FROM: SAF/AQC
               1060 Air Force Pentagon
               Washington, DC 20330-1060

         SUBJECT:     Report on Task Orders on the Air Force Network-Centric Solutions Contract
                      (Project No. D2007-D000A5-0074.000)

            This is in reply to your memorandum requesting management provide comments on subject
         report, recommendations A, B and C.1 (Air Force only). Recommendation C.2 is for the
         Director, Defense Procurement and Acquisition Policy and will not be addressed in our
         comments. The following is provided on each finding and recommendation described in subject
         report:

         Recommendation A . l : Either develop an oversight program for decentralized task orders that,
         at a minimum, focuses on best value, appropriate use of brand names, performance-based
         acquisition methods, monitoring, and information assurance; or centralize the task order process.

         The Air Force Concurs.

         The HQ 754th ELSG will enhance the current oversight program for decentralized task orders to
         focus on best value, appropriate use of brand names, performance-based acquisition methods,
         monitoring, and information assurance. In fact, as a result of the previous DoD IG Audit Report
         D-2007-106, "Air Force Network-Centric Solutions Contract," HQ 754 ELSG enhanced
         processes were put into place to increase management and oversight of decentralized orders. We
         concur management and oversight of task orders issued against IDIQ contracts is an inherent
         responsibility of the owner of the contract per DoD Instruction 5010.40 and the Air Force
         Federal Acquisition Regulation Supplement section 5316.505-90. However, it should also be
         noted that acquisition experts with the assistance of warranted contracting officers have
         responsibility for ensuring compliance with Federal Acquisition Regulations (FAR). In light of
         the findings in the report, the Program Management Offices (PMO) instituted an enhanced
         oversight process whereby all services task orders arc reviewed to ensure orders comply with the
         terms and conditions of the basic NETCENTS contract and Information Assurance (IA)
         concerns. Moreover, as a result of the A F A A Draft Audit Report, Air Force Network-Centric
         Solutions Contract, Project No. F2006-FB4000-0071.000, the Air Force has instituted a process
         to monitor and report costs savings to SAF/AQC on a quarterly basis.




                                                       32
With respect to Brand Name Justifications not being documented, the NETCENTS contract has
been modified (P00013) to more clearly address the brand name concern by incorporating in
Section H, Clause H115, in full text, FAR Provision 52.211-6. and the P M O has also updated the
NETCENTS Ordering Guide. Recognizing the findings identified in this report, the PMO will
continue to increase awareness to contracting and customer communities, Customer Service
Representatives, and through continued quarterly Program Management Reviews (PMRs) with
our NETCENTS prime contractors to support these changes.

Regarding the IA finding, it is a repetitive finding that the NETCENTS P M O addressed in
response to the previous DoD IG report and action had already been taken well before the time
of this report to ensure the clauses were identified in the basic contract and incorporated into the
NETCENTS Performance Work Statement. Additionally, 1A and security requirements were
updated in the NETCENTS Ordering Guide. This was accomplished via P00009 and P00011
contract modifications to the NETCENTS contract, dated 19 Oct 06 and 19 Dec 06 respectively.
The NETCENTS PMO, as a result of the previous finding, agree to conduct reviews (IAW
AFFARS 5316.505-90(b)), for decentralized orders, in order to assess compliance with the scope
of the NETCENTS contract, and applicable DoD and Federal policies. The 754th ELSG security
manager will serve as the individual responsible for security and information assurance reviews
with assistance by technical and contracting teams, as needed. As such, we consider this finding
closed and should he identified as requiring no further actions except to continue to monitor and
implement IA changes as appropriate.

Recommendation A.2: Allow all of the contractors fair opportunity to bid on each task order
unless a valid exception applies and then document all exceptions in the contract file.

The Air Force Concurs.

In our response to DoD IG Audit Report D-2007-106. "Air Force Network-Centric Solutions
Contract" the Air Force agreed to modify the contract to remove the Small Business reservations
language to address the fair opportunity to compete concerns.

As stated previously, we acknowledge that the evolving requirements for fair opportunity
competitions and the uncertainty and legal scrutiny associated with the reservation of contract awards
under multiple award contracts indicate that there is more work to be done with respect to
implementing future acquisitions to meet the Air Force and DoD small business goals. Given this
uncertainty and NETCENTS success in meeting these goals without the use of this clause, the
contract was modified to remove the small business set-aside language via P00013, dated 5 Sep 07,
to ensure that fair opportunity is given for orders exceeding $3,000.

Recommendation B: Centrally record all Air Force Network-Centric Solutions Contract orders,
and develop auditable processes to track orders and fees owed.

The Air Force Concurs.

             th
The HQ 7 5 4 ELSG concurs that an improved and more auditable usage fee collection process is
required. Currently, the NETCENTS contract requires contractors to pay the contract usage fee
once they receive payment from DFAS for any given NETCENTS invoice. The HQ 754th




                                                 33
                                                                                                          3

financial management personnel presently validate each monthly usage fee report and ensure
usage fee payments are accounted for in the DFAS accounting system. Errors discovered during
                                                                                           th
validation are identified to the vendor and/or DFAS for reconciliation. The H Q 7 5 4 ELSG
personnel apply disciplined processes whereby they diligently track revenue. They continuously
seek methods to improve and streamline their processes through automation. Rapid Improvement
Events, and Lean Process Initiatives. Furthermore, in recognition of the need for improvement,
        lh
H Q 754 ELSG will review and improve the oversight responsibilities to ensure more accurate
and complete accountability for usage fees is accomplished NLT 31 Jan 08.

R e c o m m e n d a t i o n C . 1 : Acquisition Exccutives of the Army, Navy, and Air Force investigate
the circumstances of these acquisitions and take administrative action against the DoD
Customers that did not pursue DoD contracting options before using GSA assistance.

The Air Force Concurs in part.

the Air Force will investigate those GSA task orders that were initiated by Air Force users and
will research the circumstances behind each Air Force generated task order. The resulting
action, either administrative or education, will be based on the findings of our investigation.
Our estimated investigation completion date is 31 Dec 07.

    Please feel free to contact my action officer. Lt Col Paul Bugenske. at (703) 696-1095, if you
require further information related to this matter. I appreciate your interest in our response to
this draft report and look forward to receiving the final report.




                                                      Deputy Assistant Secretary (Contracting)
                                                      Assistant Secretary (Acquisition)




                                                   34
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Daniel S. Battitori
Benita L. Holliman
Carol J. Johnson
David M. Staley
Carrie A. Edwards
Sharlann M. Parlanti
Dustin W. Karp
Brandon H. Lamb
Kandasamy Selvavel
David Barton
Meredith H. Johnson
